U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

November 13, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Timothy Jarred Paige v. United States of America,
S.Ct. No. 20-6074

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 6,
2020, and placed on the docket on October 20, 2020. The government’s response is due on
November 19, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 21, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6074
PAIGE, TIMOTHY JARRED
USA

TIMOTHY PAIGE
PRISONER NO. 19184-104
PO BOX 305
JONESVILLE, VA 24263

